HHS/OIG-Audit--"Office of Inspector General's Partnership Plan - New York State Comptroller Reports on Medicaid Payments Made for Medicare Beneficiaries, (A-02-98-01015)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General's Partnership Plan - New York State Comptroller Reports on Medicaid Payments Made for
Medicare Beneficiaries," (A-02-98-01015)
October 30, 1998
Complete
Text of Report is available in PDF format (1.94 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
These two reports address Medicaid payments for Medicare beneficiaries (dual eligible beneficiaries) in New York for the
2-year period ending December 31, 1995. The audits were made by the New York Office of the State Comptroller (OSC) as part
of the Office of Inspector General's partnership efforts with State auditors to expand audit coverage of the Medicaid program.
The OCS found that the State did not have sufficient controls in place to ensure Medicare Part A benefits were used before
allowing a Medicaid payment to be made. Specifically, providers directly billed Medicaid and failed to bill Medicare even
though Medicare coverage was available. In addition, the OCS found that providers billed both Medicare and Medicaid for
the same services without informing Medicaid that a Medicare payment was received. Among other things, the OCS recommended
that the State investigate and recoup overpayments totaling approximately $14.9 million ($7.45 million Federal share).